    OFFICE OF INSPECTOR GENERAL




            EVALUATION OF THE
U.S. INTERNATIONAL TRADE COMMISSION'S
          INFORMATION SECURITY
         PROGRAM AND PRACTICES

              Audit Report
             01G- AR-02-02




                             September 13,2002
INSPECTOR GENERAL


                                                                  10-Z-037




UNITED STATES INTERNATIONAL TRADE COMMISSION

                            WASHINGTON, D.C. 20436


 September 13, 2002

 MEMORANDUM

 TO:    THE COMMISSION

 We hereby submit Audit Report No. OIG-AR-02-02, Evaluation of the u.s.
 International Trade Commission's Information Security Program and Procedures,
 for the Commission's implementation of our recommendations. In accordance with
 the Government Information Security Reform Act (GISRA), and U.S. Office of
 Management and Budget (OMB) Memorandum M-02-09, this report supports the
 Office of Inspector General's independent evaluation of the Commission's
 information security program.

 Although the report identified a number of deficiencies, the Commission has taken
 important actions recently to improve information security. These include: filling the
 Chief Information Officer (CIO) position on an interim basis with an Acting CIO;
 conducting security awareness training classes with required attendance by all staff
 and contractor personnel; filling the Information Security (INFOSEC) Officer
 position; installing a network security warning banner; developing draft security plan
 and risk assessment templates; implementing physical access controls to the
 computer room; and drafting a system development life cycle (SDLC) methodology
 and program configuration management document.

 We found that the Commission had implemented only three of the 19
 recommendations from last year's audit of the information security program, with
 some additional progress on 14 recommendations. This year's audit made four
 recommendations for how the Commission might most effectively clear last year's
 unresolved recommendations and made 12 additional recommendations.
I want to acknowledge the cooperation and courtesy shown to the Office of Inspector
General by all Office Directors during the conduct of this audit. In particular, the
Acting Chief Information Officer and the Information Security Officer were helpful
in our work. Beginning last fall, they met weekly with us to discuss their strategy
and progress toward improving the Commission's information security.


                                                                Kenneth F. Clarke
                                                                Inspector General




This is an excerpt of the official audit report issued to the Commission. Subsequent
distribution of the complete report is limited due to the sensitive nature of the
information contained in it.




                                         2
